Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of High-Dollar Payments for Rhode Island Medicare Part B Claims Processed by Pinnacle Business Solutions, Inc., for Calendar Years 2004 Through 2006
July 14, 2008 | Audit A-01-08-00504
Executive Summary
During calendar years 2004-2006, Pinnacle Business Solutions, Inc. (the contractor), overpaid providers in Rhode Island $52,000.  Generally, the contractor made the overpayments because the providers incorrectly billed excessive units of service.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS